NO. 19-431
IN THE

Supreme Court of the United States
THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
V.

THE COMMONWEALTH OF PENNSYLVANIA AND
THE STATE OF NEW JERSEY, ET AL.,

Petitioner,

Respondents.

WORD COUNT CERTIFICATION

As required by Supreme Court Rule 33.1(h), I certify that the
document contains 5,779 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on October 28, 2019.

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires:
May 30, 2025

